OIG Investigative Reports, Man Guilty of Aggravated Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Rosa Emilia Rodríguez-Vélez
United States Attorney
District of Puerto Rico
Torre Chardón Bldg., Suite 1201     (787)
766-5656
350 Carlos Chardón Street
San Juan, Puerto Rico 00918
FOR IMMEDIATE RELEASE
Date: November 13, 2009
Contact:      U.S. Attorneys
Office
Lymarie V. LlovetAyala
Pblice Affairs Specialist
(787) 282-1820; (787) 340-1835
MAN GUILTY OF AGGRAVATED IDENTITY THEFT
SAN JUAN, PR - Casimiro Nuñez Polanco was found guilty today, after 45
minutes of deliberation, for aggravated identity theft, announced today United
States Attorney Rosa Emilia RodríguezVélez. This investigation
was conducted by the Immigration and Customs Enforcement (ICE), the
Social Security Administration - Office of Inspector General (SSA OIG),
the U.S. Department of State - Diplomatic Security Service (DSS), the
U.S. Department of Education (DOE), the Federal Bureau of Investigation
(FBI), the U.S. Secret Service, the U.S. Postal Service, the Puerto
Rico Police Department (PRPD) and prosecuted by Assistant United States
Attorney Julia DíazRex.
Casimiro Nuñez Ploanco was charged with three counts of identity theft, aggravated identity theft and social security fraud.  Prior to today's verdict, the defendant plead guilty of counts one and three of the indictment (identity theft and social security fraud), on August 25, 2009. The trial for count two started yesterday at 2:00 pm and finished today at approximately 2:00 pm.   The sentence is set for February 16, 2010 at 9:00 am before Chief Judge Fusté.  The defendant is facing a sentence of at least two years up to a maximum of fifteen years in prison.
On April 23, 2009, Nuñez Polanco possessed with intent to transfer unlawfully 24 United States identification documents: 12 stolen U.S. Social Security Cards and 12 Puerto Rico Birth Certificates.
With the convictions of this defendant we want to send a message to all
those criminal who dedicate their lives to take away peoples identities that
we will not tolerate these types of crimes. The U.S. Attorneys Office will
continue working along with other law enforcement agencies and will prosecute
the criminals to the full extent of the law, said Rosa Emilia RodríguezVélez,
U.S. Attorney for the District of Puerto Rico.
###
Printable view
Last Modified: 11/19/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov